                                                                                        Oflice of1mpector General

                                                                                        US.Department of Homeland Security
                                                                                        1111 Broadway, Suite 1200
                                                                                        Oakland, California 94607

                                                                                       Homeland
                                                                                       Security
                                                   November 8,2005


MEMORANDUM FOR:                      John E. Pennington
                                     Regional Director


FROM:                                ~ o b e rvt a s t r i m
                                     Director, Grant Program Management Audit Division

SUBJECT:                             Audit of Yakima County
                                     Yakima, Washington
                                     Public Assistance Identification Number 077-00000
                                     F E U Disaster Number I 100-DR-WA
                                     Audit Report Number DS-01-06

The Office of Inspector General (OIG) audited public assistance grant funds awarded to Yakima
County, Yakirna, Washington (County) for Disaster No. 1100. The objective of the audrt was to
determine whether the County expended and accounted for Federal Emergency Management
Agency (FEMA) funds according to federal regulations and FEMA guidelines.

The County received a public assistance grant award of $6.5 million from the Washington Military
Department, Emergency Management Division (EMD), a FEMA grantee, for damage resulting from
high winds, severe winter storms, and flooding that occurred from January 26, 1996 to February 3,
1996. The award provided 75 percent federal funding for 11 large projects and 13 small projects. '
The audrt covered the period January 26, 1996 to January 7,2002, and included the review of the
11 large projects and 1 small project with a total award of $6.3 million (see Exhibit).

The OIG performed the audit under the authority of the Inspector General Act of 1978, as amended,
and accordrng to Government Auditing Standards issued by the Comptroller General of the United
States. The audit included the review of FEMA, EMD, and County records, a judgmental sample of
project expenditures, and other audrting procedures considered necessary under the circumstances.

                                                RESULTS OF AUDIT

The County generally expended and accounted for public assistance funds according to federal
regulations and FEMA guidelines for 8 of 12 projects reviewed. However, for three large projects,
OIG questioned $22,436 of the force account labor costs claimed by the County (FEMA's share of



 Federal regulations in effect at the time of the disaster set the large project threshold at $43,700.
the claimed amount is $16,828). The amount questioned consisted of $12,296 in excessive overtime
fringe benefits costs and $10,140 in unsupported charges.

Finding A - Excessive Overtime Frin~eBenefits Costs

The County's claim for projects 58801,58803, and 58808 included $12,296 ($7,996, $2,1062,and
$2,194, respectively) of excessive overtime fringe benefits costs. For these three projects, the County
applied an overtime fringe rate of 44 percent to overtime wages although the correct rate per the
County's payroll policy was 20 percent. According to 44 CFR § 13.20(b)(5), the County is required
to follow Office of Management and Budget (OMB) cost principles, agency program regulations,
and the terms of grant and subgrant agreements in determining reasonableness, allowability, and
allocability of costs. OMB Circular A-87, Attachment B, Section 11, allows federal reimbursement
for fringe benefits costs when the charges are consistent with the County's established policies.

County officials did not agree that the $12,296 should be returned to FEMA. These officials stated
that the County had incurred higher total expenses than actually submitted to FEMA for
reimbursement and thus, FEMA should allow the County to offset the questioned costs with
unclaimed expenses. In reconciling the County's total claim with FEMA records, OIG determined
that the County's unclaimed costs: (1) had previously been disallowed by FEMA, (2) were not
related to force account labor, or (3) were not eligible for public assistance funding. Therefore, OIG
continues to question the $12,296 since the claimed overtime fringe benefits costs were not
consistent with the County's established policy and were excessive.

Finding B - Unsupported Costs

The County's claim for project 58803 included $10,140 in force account labor costs3 not supported
with documentation showing the charges were disaster related. According to 44 CFR 5 13.20, the
County is required to maintain accounting records that identify how FEMA funds are used. The
County claimed $59,469 in force account labor costs for project 58803; however, accounting records
only supported $49,329. As for Finding A above, the County did not believe the unsupported amount
should be returned to FEMA because more costs were incurred for other projects than actually
submitted for reimbursement. However, for the same reasons stated in Finding A, OIG continues to
question $10,140 ($59,469 claimed less $49,329 supported) as unsupported costs.

                                           RECOMMENDATION

The Office of Inspector General recommends that the Regional Director, FEMA Region X, in
coordination with EMD, disallow questioned costs of $22,436.

                DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOW UP

The OIG discussed the results of this audit with County officials on August 29,2005. Those officials
did not agree with the OIG's conclusion that FEMA should disallow the questioned costs. The OIG
also notified FEMA and EMD officials of the audit results on September 13,2005.


 Excessive overtime fringe benefits costs on project 58803 were computed net of Finding B unsupported costs.
 Force account labor costs include wages and benefits for both regular and overtime hours.
Please advise this office by January 9,2006 of any actions taken in response to the recommendations
in this report. Should you have any questions concerning this report, please contact me at
(510) 627-7011. Key contributors to this assignment were Humberto Melara and Kenneth B.
Valrance.
                                                                             Exhibit

                                  Schedule of Audited Projects
                                  Yakima County, Washington
                       Public Assistance Identification Number 077-00000
                             FEMA Disaster Number 1100-DR-WA

                     Project        Award          Questioned     Finding
                     Number         Amount           Costs       Reference
                  Large Projects:
                      22055
                      28336
                      36174
                      58801
                      58803
                      58806
                      58808
                      58815
                      58816
                      59804
                      59924
                    Sub-total       $6.3 12.59 1       $22.436

                  Small Projects:
                     59920              $3.125
                    Sub-total           $3.125

                      Total:        $6,315,716         $22,436


Finding Reference Legend
A - Excessive Overtime Fringe Benefits Costs
B - Unsupported Costs
